Attorneys for Petitioners
Brian H. Fletcher
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

202-514-2217

SupremeCtBriefs@USDOJ.gov
Party name: Federal Bureau of Investigation, et al.
Attorneys for Respondents
Ahilan T. Arulanantham
Counsel of Record

UCLA School of Law
385 Charles Young Drive East
Los Angeles, CA 90095

310-825-1029

arulanantham@law.ucla.edu
Party name: Yassir Fazaga, et al.
Catherine Mary Agnes Carroll
Counsel of Record

Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006

202-663-6000

catherine.carroll@wilmerhale.com
Party name: J. Stephen Tidwell and Barbara Walls in support of petitioners
Alexander Howard Cote
Counsel of Record

Winston & Strawn LLP
333 S. Grand Avenue, 38th Floor
Los Angeles, CA 90071

213-615-1993

acote@winston.com
Party name: Paul Allen, Kevin Armstrong, and Pat Rose in support of reversal

